OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/WEST BANK AND GAZA’S
PALESTINIAN AUTHORITY
CAPACITY ENHANCEMENT
PROGRAM


AUDIT REPORT NO. 6-294-11-009-P
SEPTEMBER 28, 2011



CAIRO, EGYPT

Office of Inspector General


September 28, 2011

MEMORANDUM

TO:       	          USAID/West Bank and Gaza Director, Michael T. Harvey

FROM: 	              Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	            Audit of USAID/West Bank and Gaza’s Palestinian Authority Capacity
                     Enhancement Program (Report Number 6-294-11-009-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report and have included the comments in their
entirety in Appendix II (excluding attachments).

The report includes five recommendations to USAID/West Bank and Gaza. The Regional
Inspector General has reviewed the mission’s response to the draft report and determined that
management decisions have been reached on all recommendations and final action taken on
Recommendations 2 and 5. Please provide the Audit Performance and Compliance Division of
USAID’s Office of the Chief Financial Officer with evidence of final action to close these
outstanding recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International
Development USAID Office Building 1a
Nady El-Etisalat Street Off Ellaselki Street
New Maadi Cairo, Egypt
www.usaid.gov/oig/
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 7 


      Some Reported Baseline Data Were Not Reliable ..................................................... 7 


      One Indicator Was Not an Objective Measure of Program Performance ................... 8 


      Four Indicator Targets Were Not Properly Modified.................................................... 9 


Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 



Abbreviations

The following abbreviations appear in this report:

ADS              Automated Directives System
COE              Centers for Excellence
COTR             Contracting Officer’s Technical Representative
FY               Fiscal Year
IMF              International Monetary Fund
PA               Palestinian Authority
RIG              Regional Inspector General
SUMMARY OF RESULTS

Since the establishment of the Palestinian Authority (PA) with the signing of the Oslo Accords in
1993, the PA government has largely been characterized as ineffective and unresponsive with
little transparency or accountability to the people. The World Bank and others have written
about the corruption and mismanagement of many PA institutions.1 However, following the
departure of Hamas from the coalition government in the West Bank in 2007, the U.S.
Government took steps to support the newly formed government, which appointed sector
experts and qualified decision makers to lead reform efforts. The Prime Minister has made
reform and development of the PA a key objective of his overall mandate and has requested
assistance from the international community in this endeavor.

In September 2008, USAID/West Bank and Gaza awarded a 3-year, $20 million task order to
Chemonics International to implement the Palestinian Authority Capacity Enhancement
Program to support public sector reform efforts. The mission issued the task order under the
Building Recovery and Reform through Democratic Governance Indefinite Quantity Contract,2
which has an overall ceiling of $750 million. The mission provided additional funding of
$1 million in September 2010 to increase the number of offices renovated under the program
and to provide targeted technical assistance to the Central Elections Commission. The mission
had disbursed $15,700,627 for the program as of March 31, 2011.

Program objectives include the following:

	 Improving delivery of key services by targeted PA ministries and institutions, resulting in
   immediate tangible benefits to citizens.

	 Increasing financial transparency in the management of public finances by the PA and
   increasing accountability.

	 Providing enhanced and sustainable capacity of PA officials.

	 Strengthening public communications about, and public participation in, PA decision making.

The implementer designed activities to achieve these objectives, including training in leadership,
communications, and fiscal management; technical assistance; and the provision of equipment
to upgrade information technology within the targeted ministries and support coordination with
other donor efforts in this area. Chemonics International and USAID/West Bank and Gaza
selected the Ministries of Transportation, Public Works and Housing, Interior,
Telecommunication and Information Technology, and Finance as the first five to receive
capacity-building assistance and renovations of selected facilities.3 In addition, the program
included a small-grants component intended to bolster the ability of Palestinian

1
  World Bank, West Bank and Gaza Public Expenditure Review Volume 1—From Crisis to Greater Fiscal
Independence, Report No. 38207-WBG, February 2007; Jim Zanotti, The Palestinians: Background and
U.S. Relations, Congressional Research Service Report for Congress, August 30, 2011.
2
  According to FAR 16.504, an indefinite quantity contract provides for an indefinite quantity, within stated
limits, of supplies or services during a fixed period. The Government places orders for individual
requirements. The contract must require the Government to order and the contractor to furnish at least a
stated minimum quantity of supplies or services.
3
  Although the implementer’s program team also worked with the Palestinian Land Authority for some
facility renovation, the Land Authority did not participate in the capacity building process.
                                                                                                           1
nongovernmental organizations to engage in dialogue with PA ministries. The program also
coordinated with other donors working in the area of public sector reform, including the United
Nations Development Programme; the World Bank; and Germany’s Society for International
Cooperation, which, for example, took the lead in digitizing services for the Ministry of Interior
while the program developed operating procedures to reflect these improvements.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit to determine whether
USAID/West Bank and Gaza’s Palestinian Authority Capacity Enhancement Program is
achieving its main goal of supporting Palestinian Authority public sector reform efforts.

USAID/West Bank and Gaza’s program is achieving its main goal of supporting PA public sector
reform efforts. Sixteen citizen service facilities across the West Bank have been refurbished and
upgraded to provide more effective and efficient citizen services such as issuance of licenses,
passports, and certificates. Chemonics International reported that 2,935 participants attended
program-sponsored trainings and workshops during the first 2 years of the program. During site
visits to the five targeted ministries and regional facilities, auditors met with ministers,
government staff, and citizens who expressed satisfaction with improved business processes
and renovations.

The Centers of Excellence (COE) initiative, under which the implementer interacts with five
partner ministries to conduct self-assessments and empower government employees to identify
needs and reforms, has contributed to the development of a citizen-centered, results-focused
institutional culture with staff as the change agents. Using this initiative, the implementer guides
the ministries in conducting self-assessments and empowering government employees at
multiple levels to identify needs and reforms. Consequently, the program has received support
from all levels of the ministries in which it operates. For example, one COE team leader at the
Ministry of Transportation said that employees used to face resistance, but now they are part of
the overall transformation within the ministry, and women, in particular, are more recognized for
their skills.

Ministers and deputy ministers also have described their commitment to the COE initiative.
Chemonics believes that the changes in culture brought about by the COE process will have a
lasting effect when the program ends, and the progress made thus far will likely be sustainable
despite the uncertainty of future PA leadership and budget. Government officials echoed this
sentiment during site visits. In fact, the PA cabinet recently approved the formation of a national
steering committee to support the COE initiative.

These process improvements and cultural changes have also reached the regional offices. For
example, the Head of Palestine Post said that program activities have led to improved
perception of the Palestinian Post, increased mail volume, and increased revenues. The
program also assisted the Palestine Post in establishing a postal code system in the West Bank
to provide faster and more accurate mail delivery. Some post office employees who received
training through the program indicated that they are better able to do their jobs and provide
better customer service. Palestine Post is now renovating many other post offices from its own
budget based on lessons learned through the program on how to create a professional, citizen-
oriented environment.

The main program intervention at the Ministry of Public Works and Housing was capacity
building for three road repair units, including staff training and the provision of needed
equipment. Road repair units are located throughout the West Bank to provide ongoing and
emergency road maintenance. However, before the program helped reestablish these road
                                                                                                  2
repair units, the ministry had been unable to make necessary repairs to the roads under its
jurisdiction in the West Bank. The program provided equipment and training in geographic
information systems that, according to the Ministry of Public Works and Housing, have helped
the ministry prioritize and monitor maintenance.

The office manager of the Hebron Area Property Tax Department has applauded the program
for its positive impact on staff performance, process efficiency, and increased revenues.
Program training increased staff skills and allows them to provide better service. Citizens are
more likely to visit the office because of a more customer-friendly environment. The Director
General of the Tax Department highlighted the operations manual developed through the
program; the manual has led to a consistent system of procedures and service-delivery
throughout the West Bank for the first time. The integrated approach of renovations, business
process reengineering, and training led to the overall impact. The promotional campaign
increased citizens’ awareness about their tax obligations. According to the Director General,
program support has also served as a catalyst for the Tax Department to improve its response
to other development issues and to improve the quality of service it provides. As a result of
these changes, collections have increased substantially. The Prime Minister and international
community have recognized the achievements made possible through the program in
coordination with other donor efforts.

According to the World Bank’s April 2010 Report to the Ad Hoc Liaison Committee,4
developments in the tax administration system

       have improved the effectiveness of enforcement activity since mid-2009 and in
       conjunction with the stronger economy there has been a noticeable increase in
       the taxes being collected. Further reforms are proposed for the tax administration
       system with technical support being provided by the United States Agency for
       International Development and IMF.

The World Bank also states that domestic tax revenues rose by nearly 50 percent from 2009 to
2010, resulting from increased enforcement and stronger collection efforts. Overall, the United
Nations reported that, as of April 2011, the PA had upheld several normative functions of
governance, including transparency, freedom of media, and mitigation of corruption. These
improvements are the result of efforts by the PA and multiple donors, including USAID activities
within the Ministry of Finance that focused on property and income tax interventions.

One key component of the program was strengthening public communications about and public
participation in PA decision making. To achieve this goal, the program conducted public
awareness campaigns and outreach events on how to use public services. Chemonics also
helped the PA distribute a cartoon series that included a range of public service messages to
assist citizens in their interactions with the government.

Customers at different offices reported that their experiences were much improved, with shorter
transaction times, good customer service, and comfortable waiting areas. They also indicated
that they knew which documents to bring. Before, people had to wait for hours or return the next
day and often had to bring a lawyer to navigate the processes. Although the program focused
on the PA receiving credit for government reforms, citizens were still aware that funding for the
service center renovations came from USAID.


4
 Towards a Palestinian State: Reforms for Fiscal Strengthening: Economic Monitoring Report to the Ad
Hoc Liaison Committee, April 13, 2010.
                                                                                                       3
In addition to the above achievements, the mission and the implementer worked together to
develop indicators that included detailed definitions and measured program impact as well as
outputs. Impact indicators included measures such as changes in customer satisfaction,
decreases in waiting time for customers, and responsiveness to citizen feedback.

Although USAID/West Bank and Gaza and its implementer worked to develop indicators that
measure the program impact described above, some indicators’ reported results were
unsupported, one indicator reviewed was not an objective measure, and several indicators had
errors in the established targets. The audit tested 11 of 23 program indicators tracked in the
mission’s data tracking system. Seven of the 11 indicators (indicators 3–5 and 8–11 in the table
below) did not meet their fiscal year (FY) 2010 targets. This conclusion is somewhat misleading,
however, as the mission did not modify targets appropriately for four of the seven indicators
(Indicators 8–11) upon subsequent changes, including modifying the definition of trainees to
ensure that they were not double-counted and postponing implementation of the audit designed
to measure improvement in ministries’ strategic communications. Problems with these four
indicators are discussed in the findings section (pages 7–10).

                                Audited Program Indicators and Their 

                                    FY 2010 Targets and Results 


                                                      FY
                                                              FY 2010     Target
                    Indicator                        2010                            Reference
                                                               Actual      Met?
                                                    Target
(1) Number of locations with new or upgraded
                                                     11         16         Yes
IT or operating equipment to deliver services
(2) Number of procedures with written standard
                                                     100        269        Yes
operating work instructions
(3) Percent change in average customer time
                                                                                   See discussion
spent to receive services in the targeted            -5%       +32%        No
                                                                                   below.
institutions and ministries
(4) Number of services improved through                                            See discussion
                                                     60         26         No
business process engineering                                                       below.
(5) Number of reform initiatives attempted by                                      See discussion
                                                      4          0         No
ministry COE team                                                                  below.
(6) Percent change of customers satisfied with
                                                                Data               See finding,
the service delivery provided in the targeted        3%                    N/A
                                                             incomplete            page 7.
institutions and ministries
(7) Percent change in number of successful                      Data               See finding,
                                                     5%                    N/A
transactions completed per day                               incomplete            page 7.
                                                                Data               See findings,
(8) Score on strategic communications audit          10                    N/A
                                                             incomplete            pages 8–9.
                                                                                   See finding,
(9) Number of Ministry of Interior staff trained.    543        98         No
                                                                                   page 9.
(10) Number of Ministry of Transportation staff                                    See finding,
                                                     455        174        No
trained                                                                            page 9.
(11) Number of Ministry of Telecommunication                                       See finding,
                                                     336        222        No
and Information Technology staff trained                                           page 9.

Three other sample indicators (Indicators 3–5 in the table) did not meet their FY 2010 targets for
various reasons. For Percentage change in average customer time spent to receive services in
the targeted institutions and ministries, the FY 2010 target was a 5 percent reduction in average
time, but the reported result was an increase of 32 percent, largely because of the results for the
Ministry of Interior. The program team did not find a conclusive reason for the increase, but
                                                                                                  4
believes it may be that the FY 2010 study was conducted during a busier period of the year than
the baseline study. However, the data do not show a higher volume in transactions in the
second survey period compared with the first one. The Ministry of Interior had a baseline
transaction processing time of 16.1 minutes per transaction. The FY 2010 result for this ministry
was 48.5 minutes, almost three times the amount reported in the baseline study. The program’s
chief of party mentioned that the transaction time has since been reduced to 40 minutes, and 20
minutes reported in the subsequent periods. Additionally, customers at the two Ministry of
Interior offices visited noted that waits were shorter than before. All other ministries
experienced a decrease in transaction time.

For Number of reforms attempted by ministry COE teams, USAID/West Bank and Gaza
reported no reforms initiated for FY 2010, although a target of four reforms had been set. The
chief of party explained that a few of the reforms were projected to have been far enough along
to count before the end of FY 2010; however, that was not the case. The chief of party stated
that implementer staff was on target to meet the cumulative goal of 29 by the end of the
program in 2011 and noted he expects to exceed the target significantly, because the COE
teams are initiating more reform attempts than they had in other countries where Chemonics
implemented similar programs. The FY 2010 target for Number of services improved through
business process engineering was 60, while the actual result was 26. This slippage occurred
because the ministries implemented reforms more slowly than anticipated. The chief of party
also reported that Chemonics added these delayed programs to the FY 2011 target and that the
program likely will exceed the overall cumulative target by the end of FY 2011.

Given the program’s reported progress during FY 2011 as described above, we are not making
any recommendations regarding indicators 3–5.

In summary, the audit identified the following problems:

   Some reported baseline data were not reliable (page 7). 

   One indicator was not an objective measure of program performance (page 8). 

   Four indicator targets were not properly modified (page 9). 


The audit recommends that USAID/West Bank and Gaza improve the effectiveness of the
program by doing the following:

1. 	 Developing and implementing a plan with milestones to establish management controls that
     require indicator data reported under the Palestinian Authority Capacity Enhancement
     Program to be accurate and reliable (page 8).

2. 	 Verifying and correcting in writing any errors in the reported baseline data for the Palestinian
     Authority Capacity Enhancement Program and documenting revisions in the mission’s data
     tracking system (page 8).

3. 	 Requiring the implementer to obtain baseline data for the strategic communications audit
     indicator for the Palestinian Authority Capacity Enhancement Program (page 8).

4. 	 Requiring the implementer to use a qualified, independent third party to score the strategic
     communications audit indicator for the Palestinian Authority Capacity Enhancement
     Program (page 9).



                                                                                                   5
5. 	Restating the fiscal year 2010 targets in the mission’s data tracking system so that its
    indicators for the Palestinian Authority Capacity Enhancement Program are consistent with
    the program’s data collection practices (page 10).

Detailed findings follow. Our evaluation of management comments is on page 11. The audit
scope and methodology are described in Appendix I, and management comments are in
Appendix II.




                                                                                           6
AUDIT FINDINGS 

Some Reported Baseline Data
Were Not Reliable
According to USAID’s Performance Evaluation and Monitoring TIPS Number 8, a supplemental
reference to the Automated Directives System (ADS) 200 Series:

       Baselines help managers determine progress in achieving outputs and
       outcomes. They also help identify the extent to which change has happened at
       each level of result…. Lack of baseline data not only presents challenges for
       management decision-making purposes, but also hinders evaluation efforts. It is
       generally not possible to conduct a rigorous impact evaluation without solid
       baseline data.

ADS 203.3.4.5 further states, “Baseline values should be measured using the same data
collection source and method that will be used to collect actual performance data.”

For 3 of the 11 indicators tested, USAID/West Bank and Gaza did not establish a baseline, or
the reported baseline was unsupported. For the indicator Percent change of customers
satisfied with the service delivery provided in the targeted institutions and ministries, baseline
data for three of the five ministries were collected using a different methodology than that used
to report results for FY 2010. Chemonics has begun recalculating the baseline data to provide
for consistent data-gathering methodology, and preliminary indications are that the reported
15.63 percent was overstated by approximately 80 percent. However, the reported increase still
exceeds the original target of 3 percent for FY 2010.

For the indicator Percent change in number of successful transactions completed per day, the
reported result of 49 percent significantly exceeded the target of 5 percent. However,
Chemonics did not maintain supporting documentation for the baseline levels for this indicator
that the government ministries involved reported to it. Chemonics has subsequently gone back
to the ministries to request the supporting data, and in most cases, the reported levels are
approximately the same as those reported by USAID/West Bank and Gaza. However, the
baseline data are not complete, as one ministry office no longer has access to the source of the
information for the baseline data.

For another indicator, Score on strategic communications audit, Chemonics did not collect
baseline data. According to the chief of party, information at the time indicated that the five
ministry partners had little to no communication capacity, so after discussions with USAID/West
Bank and Gaza, Chemonics decided not to obtain baseline data.  The contracting officer’s
technical representative (COTR) should have ensured that the implementer collected baseline
data; without baseline data, the indicator cannot effectively measure the program’s
accomplishments.

Because of the above weaknesses in collecting baseline data, USAID/West Bank and Gaza is
limited in its ability to evaluate objectively the extent to which certain program activities have
effected change within the targeted Palestinian Authority ministries. Without a reliable starting
point, the mission cannot effectively measure the changes that occurred because of the


                                                                                                7
program’s interventions. The above problems with the baseline data occurred because
Chemonics did not establish a consistent and reliable methodology at the outset of the program
to collect and maintain baseline data for all its indicators. Additionally, although the COTR
conducted a data quality assessment of the program’s indicators, the assessment did not
identify these weaknesses in data collection because the sample of indicators covered by the
assessment did not include any that required collection of baseline data. Data collection
practices have improved over the life of the project, but some gaps still exist in the program’s
reporting because of a lack of fully supported baseline data for the three indicators described
above. To enable the mission to conduct an effective impact evaluation of the program, this
audit makes the following recommendations.

   Recommendation 1. We recommend that USAID/West Bank and Gaza develop and
   implement a plan with milestones to establish management controls that require
   indicator data reported under the Palestinian Authority Capacity Enhancement Program
   to be accurate and reliable.

   Recommendation 2. We recommend that USAID/West Bank and Gaza verify and
   correct in writing any errors in the reported baseline data for the Palestinian Authority
   Capacity Enhancement Program and document revisions in the mission’s data tracking
   system.

   Recommendation 3. We recommend that USAID/West Bank and Gaza require the
   implementer to obtain baseline data for the strategic communications audit indicator for
   the Palestinian Authority Capacity Enhancement Program.

One Indicator Was Not an
Objective Measure of Program
Performance
ADS 203.3.4.2 sets forth several criteria for use in selecting performance indicators, one of
which is that indicators should be “objective.” To be objective, performance indicators should be
unambiguous. TIPS Number 12, “Guidelines for Indicator and Data Quality,” an additional help
document for the ADS 200 series, provides further clarification on indicator objectivity:
“Objective indicators have clear operational definitions that are independent of the person
conducting the measurement—that is, different individuals would collect data for an objective
indicator using the same indicator definition.”

The program task order signed with Chemonics notes that one of the objectives of the program
is to “strengthen public communications about … [Palestinian Authority] decision-making.”
However, although citizens interviewed indicated an increased awareness of information related
to the government services they were receiving, the indicator that was designed to measure
progress toward achieving this objective, Score on strategic communications audit, did not meet
ADS standards for objectivity.

Chemonics based the indicator on criteria established for such evaluations by the
Communications Consortium Media Center. The evaluation tool looks at 16 strategic
communications practices in an organization, scoring each on a scale of 1 to 5, where a score
of 1 is an “ad hoc” practice and 5 is an “optimized” process. Although the evaluation tool
provides definitions for the five levels on this scale, the scoring requires subjective interpretation
by the person conducting the evaluation.

                                                                                                    8
Another factor that weakened the objectivity of this indicator was that the program’s
performance management plan calls for Chemonics staff to collect the data instead of an
independent third party. Having an independent assessment to conduct the evaluation could
reduce some of the potential bias in scoring the ministries.

The use of a biased indicator occurred because Chemonics was not aware the instrument was
flawed. Additionally, although the COTR conducted a data quality assessment of a sample of
the program’s indicators, the assessment did not include this indicator.

Because of the above weaknesses related to this indicator, the results reported do not permit a
useful assessment of progress over time. Although some limitation would still exist related to
the objectivity of the indicator, providing for scoring of the evaluation by an independent third
party and establishing baseline data to help track progress over time could strengthen the
indicator’s usefulness. Therefore, the audit makes the following recommendation.

   Recommendation 4. We recommend that USAID/West Bank and Gaza require the
   implementer to use a qualified, independent third party to score the strategic
   communications audit indicator for the Palestinian Authority Capacity Enhancement
   Program.

Four Indicator Targets
Were Not Properly Modified
ADS 203.3.4.5 states, “For each indicator in a [Performance Management Plan], the [Assistance
Objective] Team should include performance baselines and set performance targets that are
ambitious, but can realistically be achieved within the stated timeframe and with the available
resources.” Additionally, ADS 203.3.4.6 states, “Usually, as part of the USAID Mission/Office’s
Annual Portfolio Review process, [Assistance Objective] Teams should update [Performance
Management Plans] regularly with new performance information as [Assistance Objectives]
develop and evolve.”

For 4 of the 11 indicators tested, USAID/West Bank and Gaza did not adjust indicator targets
after changes occurred in the planned outputs. For example, for the three indicators, Number of
Ministry of Interior staff trained, Number of Ministry of Transportation staff trained, and Number
of Ministry of Telecommunication and Information Technology staff trained, the targets were set
based on levels that would allow trainees to be counted more than once if they attended more
than one training. ADS 203.3.5.1.c states that data should be sufficiently precise to present a
fair picture of performance and enable management decision making at the appropriate levels.
Double-counting trainees does not present a fair picture of performance.

After establishing initial targets, Chemonics and mission officials met to discuss data collection
and reporting methodology, and both parties agreed not to count the same individual more than
once in the indicator results data. However, Chemonics did not revise the inflated FY 2010
training targets established at the outset of the program to reflect the agreed-on data collection
methodology. Chemonics stated that it established FY 2011 targets based on the appropriate
methodology.

For another indicator, Score on strategic communications audit, the program team set a target
score of 10 for FY 2010; however, Chemonics subsequently decided not to conduct an



                                                                                                9
evaluation after the end of FY 2010 because the program’s strategic communications activities
had not yet made any significant progress.

Because the FY 2010 targets were not adjusted to reflect the actual data collection
methodology, the reported results may lead to erroneous conclusions about program
accomplishments. The targets established were not realistic based on the correct data collection
methodology. As a result, the established targets were not useful in helping determine whether
the program is making overall progress as planned and at the levels envisioned. Although the
program team corrected performance targets for FY 2011 to reflect the appropriate data
collection methodology, this audit makes the following recommendation to strengthen the results
reporting and analysis efforts under the program.

   Recommendation 5. We recommend that USAID/West Bank and Gaza restate the
   fiscal year 2010 targets in the mission’s data tracking system so that indicators for the
   Palestinian Authority Capacity Enhancement Program are consistent with the program’s
   data collection practices.




                                                                                               10
EVALUATION OF MANAGEMENT
COMMENTS
USAID/West Bank and Gaza provided its comments on our draft report on September 16, 2011,
and provided its plan of action for addressing each of the five recommendations in the draft
audit report. The mission also provided e-mail clarification regarding target dates for completing
planned actions on the recommendations. We have reviewed the response and determined
that management decisions have been reached on all five recommendations and final action
taken on Recommendations 2 and 5.

For Recommendation 1, to develop and implement a plan with milestones to establish
management controls that require indicator data reported under the Palestinian Authority
Capacity Enhancement Program to be accurate and reliable, the mission noted several actions
it will take to begin addressing the recommendation. First, the mission will review Chemonics’
data collection and reporting procedures and ensure the adequacy of the control system. The
COTR will conduct quarterly data checks to verify the accuracy of data in the newly developed
quarterly performance reports. The target date for completing the first review is December
2011.

In addition to the actions taken by the mission, Chemonics is also in the process of reviewing its
data collection and reporting methods. The mission plans to obtain the results of this review by
October 31, 2011. Having reviewed the above response, we have determined that a
management decision has been reached on Recommendation 1, with final action anticipated by
December 31, 2011.

For Recommendation 2, to verify and correct in writing any errors in the reported baseline data
for the Palestinian Authority Capacity Enhancement Program and document revisions in the
mission’s data tracking system, the mission completed its review on August 26, 2011, and
entered the corrections into the mission’s results data tracking system. Accordingly, the mission
has taken final action on Recommendation 2.

For Recommendation 3, to require the implementer to obtain baseline data for the strategic
communications audit indicator for the Palestinian Authority Capacity Enhancement Program,
Chemonics plans to hire a consultant to conduct a communication assessment for partner
ministries. As part of this assessment, the consultant will assess the ministries’ communications
capabilities prior to the beginning of the project, which will serve as baseline data for this
indicator. The target date for completion of the assessment is October 31, 2011. Therefore, a
management decision has been reached on this recommendation, with final action anticipated
by October 31, 2011.

For Recommendation 4, to require the implementer to use a qualified, independent third party to
score the strategic communications audit indicator for the Palestinian Authority Capacity
Enhancement Program, Chemonics has identified an external consultant who will conduct an
assessment of partner ministries’ capacity for essential communications practices. Chemonics
expects the consultant to complete all deliverables by October 31, 2011. Accordingly, a
management decision has been reached on Recommendation 4, with final action anticipated by
October 31, 2011.


                                                                                               11
For Recommendation 5, to restate the fiscal year 2010 targets in the mission’s data tracking
system so that indicators for the Palestinian Authority Capacity Enhancement Program are
consistent with the program’s data collection practices, the mission completed the revisions
in the mission’s results data tracking system as of August 26, 2011. Therefore, the mission
has taken final action on this recommendation.




                                                                                               12
                                                                                Appendix I



SCOPE AND METHODOLOGY

Scope
RIG/Cairo conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. The purpose of this audit was to determine whether USAID/West Bank and
Gaza’s Palestinian Authority Capacity Enhancement Program is achieving its main goal
of supporting Palestinian Authority public sector reform efforts. No previous audits
addressed the areas reviewed.

The scope of the audit covered reported results for FYs 2009 and 2010. RIG/Cairo
performed this audit at USAID/West Bank and Gaza and the office of the implementing
partner, Chemonics, from May 2 to June 21, 2011. We also conducted site visits to four
ministry headquarters and seven renovated regional offices. In planning and performing
the audit, we assessed internal control related to documentation and data verification,
reporting, supervisory and management review, and review of performance measures
and indicators. During our site visits, we relied on Chemonics and USAID staff as
translators to conduct interviews in Arabic with certain local officials and beneficiaries.
Additionally, we relied on staff to translate source documents that supported the reported
indicator results.

Total disbursements for the program as of March 31, 2011, were $15,700,627.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant
program risks. We met with key personnel at USAID/West Bank and Gaza and
Chemonics. We reviewed relevant documentation provided by USAID/West Bank and
Gaza and Chemonics. We also reviewed the terms of the agreement and applicable
policies and procedures. We gained an understanding of the program design and of how
USAID planned to monitor and measure the results.

We reviewed USAID/West Bank and Gaza’s and Chemonics’ compliance with Executive
Order 13224, “Blocking Property and Prohibiting Transactions with Persons Who
Commit, Threaten To Commit, or Support Terrorism,” and with USAID/West Bank and
Gaza Mission Order No. 21, “Anti-Terrorism Procedures.” Our antiterrorism compliance
testing included reviews of relevant documentation such as USAID/West Bank and
Gaza’s agreement with Chemonics, Chemonics’ subcontracts, and individual eligibility
notifications for trainees. We tested a statistical sample of subcontracts and individuals
for the inclusion of mandatory clauses and evidence that USAID/West Bank and Gaza
had vetted institutions, trainees, and key subcontractor personnel against antiterrorism
criteria. This sample size provides 95 percent confidence using a 5 percent error rate
that our conclusions regarding the universe based on our sample are correct. We also




                                                                                              13
                                                                              Appendix I


interviewed the USAID/West Bank and Gaza vetting specialist and the Chemonics
vetting specialist.

To verify reported results, we selected a random sample of 11 indicators from a universe
of 23 indicators tracked in USAID/West Bank and Gaza’s reporting system for the
program. We traced reported results for the sample indicators to the implementing
partner’s relevant source documents for FYs 2009 and 2010. We reviewed the
definitions of the indicators and evaluated them to determine whether they effectively
measured the impact of program activities.

During site visits, we verified the existence of reported deliverables, verified that the
project site complied with USAID branding requirements, and observed and discussed
the quality of the construction and equipment. We interviewed government ministers,
Centers of Excellence participants, other government officials, and citizens to determine
whether the program was meeting their needs, learn about their experiences in working
with the implementing partner and USAID, and gain an understanding of their gender
policies. We also ascertained whether beneficiaries were aware of the source of funding
for the projects.




                                                                                      14
                                                                                      Appendix II



MANAGEMENT COMMENTS



UNCLASSIFIED


Date:          September 7, 2011

To:            Regional Inspector General, Cairo, Jacqueline Bell

From:          Mission Director, USAID West Bank and Gaza, Michael T. Harvey /s/

Through:       Deputy Mission Director, Sherry F. Carlin /s/

Subject:       Mission’s Comments on the Draft Performance Audit Report of the Palestinian
               Authority Capacity Enhancement Program.

               Draft Audit Report No. 6-294-11-XXX-P dated August 15, 2011

Reference:     Bell/Harvey memorandum dated August 15, 2011


USAID West Bank and Gaza wishes to thank the Regional Inspector General/Cairo for
conducting the referenced performance audit of the Palestinian Authority Capacity Enhancement
(PACE) program. The subject draft audit report has been thoroughly reviewed by the
Democracy and Governance Office (DGO) in collaboration with other offices of the Mission.

The Mission appreciates this opportunity to comment on the draft audit report and the five
recommendations therein as the RIG prepares the final report. The following are the Mission’s
comments on each of the five recommendations.

Recommendation No. 1:

We recommend that USAID/West Bank and Gaza develop and implement a plan with milestones
to establish management controls that require indicator data reported under the Palestinian
Authority Capacity Enhancement Program to be accurate and reliable.

Response: Mission management has already developed and has implemented a plan with
milestones to establish controls that require and ensure that indicator data reported under PACE
is accurate and reliable.


                                                                                               15
                                                                                          Appendix II


The first step in the plan is for the Contracting Officer Technical Representative (COTR), in
partnership with the Program and Project Development Office (PPDO), to review the data
collection methodology for PACE and correct any errors. The COTR has completed the review
process, and the miscalculations in the baseline and targets data, which were highlighted in the
audit report, have been corrected in Geo-MIS. The corrections were also reflected in the current
Performance Management Plan (PMP) for the program. Enclosed are corrections in the baseline
values and training targets which were incorporated in the PMP (Attachment 1). The COTR and
PPDO will continue to review data collection methodology on a regular basis, particularly since
PACE is proposed for extension and a new Performance Management Plan will need to be
developed, if the extension is approved. The mission will also conduct a new data quality
assessment for all indicators during the extension period.

Spot audits will also be setup as a control. They will be conducted by the PACE COTR, in
partnership with PPDO, for all ongoing and future activities under PACE to ensure that indicator
data collected conforms to established calculation methodologies. The first spot audit will be
completed by December 2011. In addition, the PACE COTR and PPDO M&E Specialist will
review Chemonics’ internal control system and make further recommendations for improvement
if necessary. They will review data collection, analysis, review, and reporting procedures. The
purpose of the review is to ensure the adequacy of the control system and its ability to respond to
the USAID monitoring and evaluation guidelines. The PACE COTR will work to ensure that
future reporting for PACE is free from error. The COTR will conduct quarterly spot checks for
accuracy and reliability of indicator data. The COTR will also continue to work with PPD on
validating the newly developed quarterly performance report on PMP/Performance Plan and
Report (PPR) indicators. If errors are encountered, the COTR will require the implementing
partner to correct the errors and re-submit the corrected activity report in the Geo-MIS system.

The Chemonics M&E team has been revisiting the data collection processes and methodologies.
The results of the data review and validation processes and templates/forms will be shared with
USAID for approval.

By implementing these control measures, Mission management is confident that the PACE
indicator data is calculated in a consistent manner that yields accurate and reliable results that is
acceptable and satisfies the above recommendation as raised in the RIG’s draft audit report.

Recommendation No. 2:

We recommend that USAID/West Bank and Gaza verify and correct in writing any errors in the
reported baseline data for the Palestinian Authority Capacity Enhancement Program and
document revisions in the mission’s data tracking system.

Response: The Mission has already corrected errors in the baseline data for PACE. Corrections
were incorporated in the PMP, and were entered in the Missions Geo-MIS system on August 26,
2011. As noted in the response to Recommendation No. 1, the Mission will conduct quarterly
spot checks to ensure that data are tracked accurately and reported in accordance with the revised
baseline values. The corrections are enclosed in Attachment 1.



                                                                                                    16
                                                                                       Appendix II


Recommendation No. 3:

We recommend that USAID/West Bank and Gaza require the implementer to obtain baseline
data for the strategic communications audit indicator for the Palestinian Authority Capacity
Enhancement Program.

Response: The PACE implementer, Chemonics International, has identified and is in the process
of contracting an external consultant to conduct a communication audit for partner ministries.
Based on interviews, the external consultant will also assess the communications capabilities
before the project interventions to determine the baseline data for the ministries’ communications
capacities. Using a pre-design strategic communication audit methodology, the consultant will
work closely with the PACE team and partner ministries to carry out a communication audit that
focuses on the following three main areas:

 Strategy: Includes the core tasks of communications planning and strategy development.
  Core tasks include vision identification, goals and outcomes, target audiences, messages,
  communications outlets, and others.

 Implementation: Includes practices common to each ministry with an active or ongoing
  communications function. This could entail examining effective material, partnership
  building, training of messengers, outreach activities, and monitoring and evaluation.

 Support and Alignment: Includes non-communications specific practices within the
  ministry that help to ensure the communications function is successful. This includes, but
  not limited to, leadership support, integration of communication throughout the ministry, and
  involvement of staff.

The consultant will start the communication audit and will conclude his assignment on or about
September 26, 2011. Enclosed is the detailed Scope of Work for the Communications Audit
Consultant (Attachment 2).

Recommendation No. 4:

We recommend that USAID/West Bank and Gaza require the implementer to use a qualified
independent third party to score the strategic communications audit indicator for the Palestinian
Authority Capacity Enhancement Program.

Response: As stated in the response to Recommendation No. 3, Chemonics has identified an
external consultant who will conduct an assessment of partner ministries’ capacity for essential
communications practices and establish baseline values for the ministries’ capacities in this area
before USAID- PACE support. The consultant will then evaluate how the ministries improved
over the past three years with USAID-PACE support and score the ministries’ performance in
communications against established communication audit indicators. In addition, the consultant
will identify areas for further improvements that could be targeted, either by the ministries
themselves or with PACE assistance. The consultant is expected to deliver the following by
October 31, 2011:


                                                                                                17
                                                                                     Appendix II


    Detailed implementation plan and evaluation methodology, with timelines for each task.

    Completed scoring sheets with values for all partner ministries.

    Final report that includes the communication audit process, audit steps, audit scoring for
     each ministry, as well as specific findings and recommendations for each partner
     ministry.


Recommendation No. 5:

We recommend that USAID/West Bank and Gaza restate the Fiscal Year 2010 targets in the
mission’s data tracking system so that indicators for the Palestinian Authority Capacity
Enhancement Program are consistent with the program’s data collection practices.

Response: The Mission revised and restated the Fiscal Year 2010 training targets on August 26,
2011. This revision eliminated double-counting of the trainee numbers. The revised targets have
been reflected in the program’s PMP and entered in the mission’s tracking system (see
Attachment 3).




                                                                                              18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
